Office of Inspector General


      Independent Auditors’ Report
                 of the
   FMC’s FY 2013 Financial Statements

                A14-01




         December 2013



FEDERAL MARITIME COMMISSION
                               DERAL MARITIME COMMISSION
                                  Washington, DC 20573


                                             December 12, 2013
Office of Inspector General



Dear Chairman Cordero and Commissioners:

        I am pleased to provide you with the attached audit report required by the Accountability
for Tax Dollars Act of 2002 ( ATDA), which presents an unqualified (clean) opinion on t he
Federal Maritime Commission’s (FMC) fiscal year (FY) 2013 financial statements. The audit
results indicate that the FMC has established an internal control structure that facilitates the
preparation of reliable financial and performance information. The Office of Inspector General
(OIG) commends the FMC for the noteworthy accomplishment of attaining an unqualified
opinion.

       The OIG contracted with the independent certified public accounting firm of Regis &
Associates, P.C. (Regis) to perform the audit of the FMC’s financial statements for the fiscal year
ended September 30, 2 013; consider internal control over financial reporting; and test the
agency’s compliance with certain provisions of applicable laws, regulations, and contracts that
could have a direct and material effect on the financial statements. The contract required that the
audit be performed in accordance with U.S. Generally Accepted Government Auditing Standards
and Office of Management and Budget (OMB) audit guidance.

        In its audit of the Federal Maritime Commission, Regis found: the financial statements
were fairly presented, in all material respects, in conformity with U.S. generally accepted
accounting principles; there were no m aterial weaknesses in internal control over financial
reporting; and no reportable noncompliance issues with the laws and regulations tested.

        Regis & Associates is responsible for the attached auditor’s report and the conclusions
expressed in the report. The OIG does not express opinions on FMC’s financial statements or
internal control; or conclusions on compliance with laws and regulations.



                                             Respectfully submitted,

                                             /Jon Hatfield/
                                             Interim Inspector General



Enclosure
                   REPORT ON THE

            FINANCIAL STATEMENTS AUDIT

         OF FEDERAL MARITIME COMMISSION

FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2013 and 2012




                                           MANAGEMENT CONSULTANTS &
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                      REPORT ON THE

                                       FINANCIAL STATEMENTS AUDIT

                                  OF FEDERAL MARITIME COMMISSION

             FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2013 and 2012

                                                 TABLE OF CONTENTS




Independent Auditors' Report .......................................................................................... 1-4

Balance Sheet .......................................................................................................................5

Statement of Net Cost ..........................................................................................................6

Statement of Changes in Net Position .................................................................................7

Statement of Budgetary Resources ......................................................................................8

Statement of Custodial Activity ...........................................................................................9

Notes to Financial Statements ...................................................................................... 10-21

Agency Comments on Draft Audit Report (Appendix A) ........................................... 22-23
  MANAGEMENT CONSULTANTS &
 CERTIFIED PUBLIC ACCOUNTANTS


                                INDEPENDENT AUDITORS' REPORT

The Honorable Mario Cordero
Chairman
Federal Maritime Commission
Washington, DC

The Accountability of Tax Dollars Act of 2002 made the Federal Maritime Commission subject
to the annual financial statement reporting requirements of the Chief Financial Officers’ Act of
1990, which requires agencies to report annually to Congress on their financial status; and any
other information needed to fairly present the agencies’ financial position and results of
operations.

We have audited the accompanying balance sheet of the Federal Maritime Commission, as of
September 30, 2013 and 2012, and the related statements of net cost, changes in net position,
budgetary resources, and custodial activity, for the years then ended (hereinafter referred to as
“financial statements” or “basic financial statements”). The objective of our audits was to
express an opinion on the fair presentation of these financial statements. In connection with our
fiscal year 2013 and 2012 audits, we also considered Federal Maritime Commission’s internal
control over financial reporting; and tested the agency's compliance with certain provisions of
applicable laws, regulations, and contracts that could have a direct and material effect on these
financial statements.

Summary

As stated in our opinion on the financial statements, we concluded that Federal Maritime
Commission’s financial statements as of, and for the years ended, September 30, 2013 and 2012,
are presented fairly, in all material respects, in conformity with U.S. Generally Accepted
Accounting Principles.

Our consideration of internal control over financial reporting was not designed to identify all
deficiencies in internal control over financial reporting that might be deficiencies, significant
deficiencies, or material weaknesses. We did not identify any deficiencies in internal control
over financial reporting that we consider to be material weaknesses, as defined in the Internal
Control over Financial Reporting section of this report.

The results of our tests of compliance with certain provisions of laws, regulations, and contracts
disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards, issued by the Comptroller General of the United States;
and Office of Management and Budget (OMB) Bulletin Number (No.) 14-02, Audit
Requirements for Federal Financial Statements.

The following sections discuss our opinion on Federal Maritime Commission’s financial
statements; our consideration of internal control over financial reporting; our tests of the
agency’s compliance with certain provisions of applicable laws, regulations, and contracts; and
management’s and our responsibilities.

        1400 Eye Street, NW, Suite 425, Washington, DC 20005 Tel 202-296-7101 Fax 202-296-7284
Opinion on the Financial Statements

We have audited the accompanying balance sheet of Federal Maritime Commission as of
September 30, 2013 and 2012, and the related statements of net cost, changes in net position,
budgetary resources, and custodial activity for the years then ended.

 In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of Federal Maritime Commission as of September 30, 2013 and 2012, and
its net costs, changes in net position, budgetary resources, and custodial activity for the years
then ended, in conformity with U.S. Generally Accepted Accounting Principles.

Report on Internal Control over Financial Reporting

In planning and performing our audit of the financial statements of Federal Maritime
Commission as of, and for the year ended, September 30, 2013 and 2012, in accordance with
auditing standards generally accepted in the United States of America, we considered Federal
Maritime Commission’s internal control over financial reporting (internal control) as a basis for
designing audit procedures that are appropriate in the circumstances for the purpose of
expressing an opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of Federal Maritime Commission’s internal control. We limited our
internal control testing to those controls necessary to achieve the objectives described in OMB
Bulletin No. 14-02. We did not test all internal controls relevant to operating objectives, as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982, such as those
controls relevant to ensuring efficient operations. The objective of the audit was not to provide
assurance on internal control or on the effectiveness on Federal Maritime Commission’s internal
control. Accordingly, we do not express an opinion on the effectiveness of the Federal Maritime
Commission’s internal control.

Our consideration of internal control was for the limited purpose described in the preceding
paragraph, and was not designed to identify all deficiencies in internal control that might be
material weaknesses or significant deficiencies; and therefore, material weaknesses or significant
deficiencies may exist that were not identified.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the agency’s financial statements will not be
prevented, or detected and corrected, on a timely basis.

Our consideration of internal control was for the limited purpose described above, and would not
necessarily identify all deficiencies in internal control that might be significant deficiencies or
material weaknesses. We did not identify any deficiencies in internal control that we consider to
be material weaknesses, as defined above. The objective of our audit was not to provide
assurance on these internal controls. Accordingly, we do not provide an opinion on such
controls.


                                                  2
Report on Compliance with Applicable Provisions of Laws, Regulations, and Contracts

As part of obtaining reasonable assurance about whether Federal Maritime Commission’s
financial statements are free of material misstatements, we performed tests of compliance with
selected provisions of applicable laws, regulations, and contracts; noncompliance with which
could have a direct and material effect on the determination of financial statement amounts, and
certain laws, regulations, and contracts specified in OMB Bulletin No. 14-02, except for those
instances of noncompliance that in the auditor’s judgment, are clearly inconsequential. We
limited our tests of compliance to these provisions, and did not test compliance with all laws,
regulations, and contracts applicable to the Federal Maritime Commission.

The results of our tests of compliance with laws, regulations, and contracts disclosed no instance
of noncompliance that would be reportable under U.S. Generally Accepted Government
Auditing Standards, or OMB audit guidance.

Providing an opinion on compliance with laws, regulations and contracts was not an objective of
our audit, and accordingly, we do not express such an opinion.

Responsibilities

Management's Responsibilities: Management is responsible for the financial statements;
establishing and maintaining effective internal control over financial reporting; preparing the
Management Discussion and Analysis (MD&A) and Required Supplementary Information
(RSI); and complying with laws, regulations, and contracts applicable to Federal Maritime
Commission.

Auditors' Responsibilities: Our responsibility is to express an opinion on the fiscal year 2013
and 2012 financial statements of Federal Maritime Commission, based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits, contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin
No. 14-02. Those standards and OMB Bulletin No. 14-02, require that we plan and perform the
audits to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of Federal Maritime Commission’s
internal control over financial reporting. Accordingly, we express no such opinion.

An audit also includes:

   •   Examining, on a test basis, evidence supporting the amounts and disclosures in the
       financial statements;
   •   Assessing the accounting principles used, and significant estimates made by
       management; and
   •   Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.


                                                 3
Other Accompanying Information

Accounting principles generally accepted in the United States of America, and Government
Auditing Standards, issued by the Comptroller General of the United States require that the other
accompanying information included in the Required Supplementary Information (RSI) section of
the Performance and Accountability Report, be presented to supplement the basic financial
statements. Such information, although not a part of the basic financial statements, is required
by the Federal Accounting Standards Advisory Board, OMB Bulletin 14-02; and OMB Circular
A-136, revised, Financial Reporting Requirements, which consider it to be an essential part of
financial reporting for placing the basic financial statements in an appropriate operational,
economic, or historical context. We have applied certain limited procedures to the Management
Discussion and Analysis (MD&A); and Required Supplementary Information, in accordance
with auditing standards generally accepted in the United States of America, which consisted of
inquires of management about the methods of preparing the information; and comparing the
information for consistency with management’s responses to our inquiries, the basic financial
statements, and other knowledge we obtained during our audit of the basic financial statements.
We do not express an opinion or provide any assurance on the information because the limited
procedures do not provide us with sufficient evidence to express an opinion or provide any
assurance.

This report is intended solely for the information and use of those charged with governance and
management of the Federal Maritime Commission, others within the organization, the Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress;
and is not intended to be, and should not be, used by anyone other than these specified parties.


Agency Comments and Our Evaluation

The Federal Maritime Commission concurred with the facts and conclusions in our report. See
Appendix A.



/Regis & Associates, PC/
Washington, DC

December 2, 2013




                                                4
                                      FEDERAL MARITIME COMMISSION
                                              BALANCE SHEET
                                      AS OF SEPTEMBER 30, 2013 AND 2012
                                                (IN DOLLARS)

                                                                                  2013                 2012
Assets:
 Intragovernmental:
   Fund Balance With Treasury (Note 2)                                        $ 2,620,747          $ 4,254,644
    Total Intragovernmental                                                       2,620,747        $ 4,254,644
    Accounts Receivable, Net (Note 3)                                                273                   4,031
    Property, Equipment, and Software, Net (Note 4)                              345,626                420,323
Total Assets                                                                  $ 2,966,646          $    4,678,998

Liabilities:
  Intragovernmental:
   Accounts Payable                                                           $    150,929         $     201,490
   Employer Contributions and Payroll Taxes Payable (Note 5)                        74,318               191,260
   Unfunded FECA Liability (Note 5)                                                    200                  324
   Custodial Liability (Note 5)                                                        273                   256
   Total Intragovernmental                                                    $     225,720        $     393,330
  Accounts Payable                                                                  233,037              177,008
  Federal Employee and Veterans' Benefits (Note 5)                                    6,912                5,910
  Accrued Liabilities                                                               311,832              901,485
  Employee Contributions and Payroll Taxes Payable (Note 5)                          30,391               24,363
  Unfunded Leave (Note 5)                                                          1,249,227            1,276,758
Total Liabilities                                                             $    2,057,119       $    2,778,854
Net Position:
 Unexpended Appropriations - Other Funds                                      $    1,820,115       $ 2,759,038
 Cumulative Results of Operations - Other Funds                                     (910,588)         (858,894)
 Total Net Position                                                           $     909,527        $ 1,900,144

Total Liabilities and Net Position                                            $    2,966,646       $    4,678,998




                       The accompanying notes are an integral part of these financial statements

                                                          5
                                FEDERAL MARITIME COMMISSION
                                   STATEMENT OF NET COST
                        FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 2012
                                        (IN DOLLARS)

                                                                                2013                2012

Gross Program Costs:
 Operational and Administrative Gross Costs                                $ 16,102,932         $ 16,908,154
 Less: Earned Revenue                                                             -                 (41,676)
 Net Program Costs                                                         $ 16,102,932         $ 16,866,478

 Formal Proceedings Gross Costs                                            $ 7,603,646          $    7,374,383
 Net Program Costs                                                         $ 7,603,646          $    7,374,383


 Office of Inspector General Gross Costs                                    $    634,730        $ 743,557
 Less: Earned Revenue                                                            (20,410)         (12,984)
 Net Program Costs                                                         $     614,320        $ 730,573


 Office of Equal Employment Opportunity Gross Costs                        $      195,312       $     193,612
 Net Program Costs                                                         $      195,312       $     193,612

Net Cost of Operations (Note 8)                                            $ 24,516,210         $ 25,165,046




                    The accompanying notes are an integral part of these financial statements

                                                       6
                              FEDERAL MARITIME COMMISSION
                          STATEMENT OF CHANGES IN NET POSITION
                      FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 2012
                                      (IN DOLLARS)

                                                                      2013                      2012

Cumulative Results of Operations:
  Beginning Balances                                              $     (858,894)           $    (712,825)

Budgetary Financing Sources:
  Appropriations Used                                                 23,046,477                23,560,395

Other Financing Sources (Non-Exchange):
  Imputed Financing Sources (Note 9)                                   1,418,039                 1,458,582
  Total Financing Sources                                             24,464,516                25,018,977

  Net Cost of Operations                                              (24,516,210)            (25,165,046)
  Net Change                                                              (51,694)              (146,069)
Cumulative Results of Operations                                  $     (910,588)           $   (858,894)

Unexpended Appropriations:
  Beginning Balances                                              $    2,759,038            $   2,378,313

Budgetary Financing Sources:
  Appropriations Received                                             24,100,000             24,100,000
  Other Adjustments                                                    (1,992,446)             (158,880)
  Appropriations Used                                                 (23,046,477)           (23,560,395)
  Total Budgetary Financing Sources                                      (938,923)               380,725
  Total Unexpended Appropriations                                 $     1,820,115           $ 2,759,038

Net Position                                                      $      909,527            $    1,900,144




                    The accompanying notes are an integral part of these financial statements

                                                       7
                                 FEDERAL MARITIME COMMISSION
                              STATEMENT OF BUDGETARY RESOURCES
                         FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 2012
                                         (IN DOLLARS)

                                                                               2013                   2012

Budgetary Resources:
 Unobligated Balance Brought Forward, October 1                          $ 1,285,050            $ 1,245,904
 Recoveries of Prior Year Unpaid Obligations                                 228,121                182,051
 Other changes in unobligated balance                                        (783,029)              (158,881)
 Unobligated balance from prior year budget authority, net                   730,142              1,269,074
 Appropriations (discretionary and mandatory)                              22,839,425             24,100,000
 Spending authority from offsetting collections                               23,614                  54,660
Total Budgetary Resources                                                $ 23,593,181           $ 25,423,734

Status of Budgetary Resources:
 Obligations Incurred (Note 11)                                           $ 23,007,870          $     24,138,684
 Unobligated balance, end of year:
    Apportioned                                                                  10,251                  86,652
    Unapportioned                                                              575,060                1,198,398
 Total unobligated balance, end of year                                         585,311               1,285,050
Total Budgetary Resources                                                  $ 23,593,181         $     25,423,734

Change in Obligated Balance
 Unpaid Obligations:
  Unpaid Obligations, Brought Forward, October 1                           $  2,969,594         $  2,546,766
  Obligations Incurred (Note 11)                                             23,007,870           24,138,684
  Outlays (gross)                                                           (23,713,907)         (23,533,805)
  Recoveries of Prior Year Unpaid Obligations                                  (228,121)            (182,051)
  Unpaid Obligated Balance, End of Year                                    $ 2,035,436          $ 2,969,594

Budget Authority and Outlays, Net:
  Budget authority, gross                                                  $ 22,863,039         $ 24,154,660
  Actual offsetting collections                                                 (23,614)             (54,660)
 Budget Authority, net                                                     $ 22,839,425         $ 24,100,000

  Outlays, gross                                                          $     23,713,907          $ 23,533,806
  Actual offsetting collections                                                    (23,614)              (54,660)
  Outlays, net                                                                  23,690,293            23,479,146
  Distributed Offsetting Receipts                                               (2,816,990)              664,935

  Agency outlays, net                                                      $ 20,873,303             $ 24,144,081




                    The accompanying notes are an integral part of these financial statements

                                                             8
                                          FEDERAL MARITIME COMMISSION
                                         AS OF SEPTEMBER 30, 2013 AND 2012
                                        STATEMENT OF CUSTODIAL ACTIVITY
                                                   (IN DOLLARS)

                                                                                        2013        2012

Revenue Activity:
 Sources of Cash Collections:
   Miscellaneous                                                                    $ 3,319,566     $ 1,006,298
 Total Custodial Revenue (Note 13)                                                    3,319,566       1,006,298


Disposition of Collections:
 Transferred to Others (by Recipient)                                                   3,319,566       1,006,298
Net Custodial Activity                                                              $        -      $       -




                    The accompanying notes are an integral part of these financial statements

                                                       9
                          FEDERAL MARITIME COMMISSION
                        NOTES TO THE FINANCIAL STATEMENTS
                                 SEPTEMBER 30, 2013

NOTE 1- SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A.     Reporting Entity

The Federal Maritime Commission (FMC) was established as an independent regulatory agency
on August 12, 1961. The FMC is responsible for the regulation of ocean borne transportation in
the foreign commerce of the United States (U.S.). The principal statutes or statutory provisions
administered by the FMC are the Shipping Act of 1984, a s amended by the Ocean Shipping
Reform Act (OSRA) of 1998; the Foreign Shipping Practices Act of 1988 (FSPA); Section 19 of
the Merchant Marine Act of 1920; and sections 2 and 3 of Public Law No. 89-777.

The FMC monitors the activities of ocean common carriers, marine terminal operators (MTOs),
agreements among ocean common carriers and/or MTOs, ports and ocean transportation
intermediaries (OTI), and (nonvessel-operating common carriers and ocean freight forwarders)
operating in the U.S. foreign commerce to ensure they maintain just and reasonable practices;
maintains trade monitoring, enforcement and dispute resolution programs designed to assist
regulated entities in achieving compliance and to detect and remedy malpractices and violations
of the 1984 A ct; monitors the laws and practices of foreign governments which could have a
discriminatory or otherwise adverse impact on s hipping conditions in U.S. trades, and imposes
remedial action, as appropriate, pursuant to section 19 of the 1920 Act or FSPA; enforces special
regulatory requirements applicable to carriers owned or controlled by foreign governments;
processes and reviews agreements, service contracts, and service arrangements pursuant to the
1984 Act for compliance with statutory requirements; and reviews common carriers’ privately
published tariff systems for accessibility and accuracy, as required by OSRA.

The FMC also issues licenses to qualified OTIs in the U.S., ensures that all OTIs are bonded or
maintain other evidence of financial responsibility, and ensures that passenger vessel operators
(PVOs) demonstrate adequate financial responsibility in case of nonperformance of voyages, or
death or injury occurring to passengers.

The FMC is composed of five Commissioners, appointed for five-year terms by the President,
with the advice and consent of the Senate. The President designates one of the Commissioners to
serve as Chairman, who is the chief executive and administrative officer of the FMC.

The FMC reporting entity is comprised of General Funds and General Miscellaneous Receipts.

General Funds are accounts used to record financial transactions arising under congressional
appropriations or other authorizations to spend general revenues.

General Fund Miscellaneous Receipts are accounts established for receipts of nonrecurring
activity, such as fines, penalties, fees, and other miscellaneous receipts for services and benefits.



                                                 10
NOTE 1- SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES Cont’d

The FMC makes custodial collections and holds custodial receivables that are non-entity assets,
which are transferred to Treasury at fiscal year end.

The FMC has rights and ownership of all assets reported in these financial statements. FMC does
not possess any non-entity assets.

B.     Basis of Presentation

The financial statements have been prepared to report the financial position and results of
operations of FMC. The Balance Sheet presents the financial position of the agency.

The Statement of Net Cost presents the agency’s operating results; the Statement of Changes in
Net Position displays the changes in the agency’s equity accounts. The Statement of Budgetary
Resources presents the sources, status, and uses of the agency’s resources and follows the rules
for the Budget of the United States Government.

The statements are a requirement of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, and the Accountability of Tax Dollars Act of 2002. They have
been prepared from, and are fully supported by, the books and records of FMC in accordance
with the hierarchy of accounting principles generally accepted in the United States of America;
standards issued by the Federal Accounting Standards Advisory Board (FASAB); Office of
Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, as
amended; and FMC accounting policies, which are summarized in this note. These statements,
with the exception of the Statement of Budgetary Resources, are different from financial
management reports, which are also prepared pursuant to OMB directives that are used to
monitor and control FMC’s use of budgetary resources. The financial statements and associated
notes are presented on a comparative basis. Unless specified otherwise, all amounts are presented
in dollars.

C.     Basis of Accounting

Transactions are recorded on both an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned, and expenses are recognized when a
liability is incurred, without regard to receipt or payment of cash. Budgetary accounting
facilitates compliance with legal requirements on the use of Federal funds.

D.     Fund Balance with Treasury

Fund Balance with Treasury is the aggregate amount of the FMC’s funds with Treasury in
expenditure and receipt accounts. Appropriated funds recorded in expenditure accounts are
available to pay current liabilities and finance authorized purchases.

FMC does not maintain bank accounts of its own, has no di sbursing authority, and does not
maintain cash held outside of Treasury. Treasury disburses funds for FMC on demand.



                                               11
NOTE 1- SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES Cont’d

E.     Accounts Receivable

Accounts receivable consists of amounts owed to FMC by other Federal agencies and the general
public. Amounts due from Federal agencies are considered fully collectible. An allowance for
uncollectible accounts receivable from the public is established when, based upon a review of
outstanding accounts and the failure of all collection efforts, management determines that
collection is unlikely to occur considering the debtor’s ability to pay.

F.     Property, Equipment, and Software

Property, equipment and software represent furniture, fixtures, equipment, and information
technology hardware and software which are recorded at original acquisition cost and are
depreciated or amortized using the straight-line method over their estimated useful lives. Major
alterations and renovations are capitalized, while maintenance and repair costs are expensed as
incurred. FMC’s capitalization threshold is $25,000 for individual purchases. Property,
equipment, and software acquisitions that do no t meet the capitalization criteria are expensed
upon receipt. Applicable standard governmental guidelines regulate the disposal and
convertibility of agency property, equipment, and software. The useful life classifications for
capitalized assets are as follows:

            Description                      Useful Life (years)
            Leasehold Improvements                   5
            Office Furniture                         5
            Computer Equipment                       5
            Office Equipment                         5
            Software                                 5

G.     Advances and Prepaid Charges

Advance payments are generally prohibited by law. There are some exceptions, such as
reimbursable agreements, subscriptions, and payments to contractors and employees. Payments
made in advance of the receipt of goods and services are recorded as advances or prepaid charges
at the time of prepayment and recognized as expenses when the related goods and services are
received.

H.     Liabilities

Liabilities represent the amount of funds likely to be paid by the FMC as a result of transactions
or events that have already occurred.

The FMC reports its liabilities under two categories, Intragovernmental and With the Public.
Intragovernmental liabilities represent funds owed to another government agency. Liabilities
with the Public represent funds owed to any entity or person that is not a Federal agency,
including private sector firms and Federal employees. Each of these categories may include
liabilities that are covered by budgetary resources and liabilities not covered by budgetary
resources.

                                               12
NOTE 1- SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES Cont’d

Liabilities covered by budgetary resources are liabilities funded by a current appropriation or
other funding source. These consist of accounts payable and accrued payroll and benefits.
Accounts payable represent amounts owed to another entity for goods ordered and received, and
for services rendered, except for employees. Accrued payroll and benefits represent payroll costs
earned by employees during the fiscal year, which are not paid until the next fiscal year.

Liabilities not covered by budgetary resources are liabilities that are not funded by any current
appropriation or other funding source. These liabilities consist of accrued annual leave, actuarial
Federal Employees’ Compensation Act (FECA), and the amounts due to treasury for collection
and accounts receivable of civil penalties.

I.     Annual, Sick, and Other Leave

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The balance
in the accrued leave account is adjusted to reflect current pay rates. Liabilities associated with
other types of vested leave, including compensatory, restored leave, and sick leave in certain
circumstances, are accrued at year-end, based on latest pay rates and unused hours of leave.
Funding will be obtained from future financing sources to the extent that current or prior year
appropriations are not available to fund annual and other types of vested leave earned, but not
taken. Nonvested leave is expensed when used. Any liability for sick leave that is accrued, but
not taken by a Civil Service Retirement System (CSRS)-covered employee is transferred to the
Office of Personnel Management (OPM) upon the retirement of that individual. Credit is given
for sick leave balances in the computation of annuities upon the retirement of Federal Employees
Retirement System (FERS)-covered employees, effective at 50%, beginning FY 2010; and 100%
in 2014.

J.     Accrued and Actuarial Workers’ Compensation

The FECA administered by the U.S. Department of Labor (DOL) addresses all claims brought by
the FMC employees for on-the-job injuries. The DOL bills each agency annually as its claims are
paid, but payment of these bills is deferred for two years to allow for funding through the budget
process. Similarly, employees that the FMC terminates without cause may receive
unemployment compensation benefits under the unemployment insurance program also
administered by the DOL, which bills each agency quarterly for paid claims. Future
appropriations will be used for the reimbursement to DOL. The liability consists of the net
present value of estimated future payments calculated by the DOL.

K.     Retirement Plans

FMC employees participate in either the CSRS or the FERS. The employees who participate in
CSRS are beneficiaries of FMC matching contribution, equal to 7% of pay, distributed to their
annuity account in the Civil Service Retirement and Disability Fund.

Prior to December 31, 1983, all employees were covered under the CSRS program. From
January 1, 1984 t hrough December 31, 1986, employees had the option of remaining under
CSRS, or joining FERS and Social Security. Employees hired as of January 1, 1987 are

                                                13
NOTE 1- SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES Cont’d

automatically covered by the FERS program. Both CSRS and FERS employees may participate
in the Federal Thrift Savings Plan (TSP). FERS employees receive an automatic agency
contribution equal to 1% of pay, and FMC matches any employee contribution up t o an
additional 4% of pay. For FERS participants, FMC also contributes the employer’s matching
share of Social Security.

FERS employees and certain CSRS reinstatement employees are eligible to participate in the
Social Security program after retirement. In these instances, FMC remits the employer’s share of
the required contribution.

FMC recognizes the imputed cost of pension and other retirement benefits during the employees’
active years of service. OPM actuaries determine pension cost factors by calculating the value of
pension benefits expected to be paid in the future, and communicate these factors to FMC for
current period expense reporting. OPM also provides information regarding the full cost of
health and life insurance benefits. FMC recognizes the offsetting revenue as imputed financing
sources to the extent these expenses will be paid by OPM.

FMC does not report on its financial statements information pertaining to the retirement plans
covering its employees. Reporting amounts such as plan assets, accumulated plan benefits, and
related unfunded liabilities, if any, are the responsibility of the OPM, as the administrator.

L.     Other Post-Employment Benefits

FMC employees eligible to participate in the Federal Employees' Health Benefits Plan (FEHBP)
and the Federal Employees' Group Life Insurance Program (FEGLIP) may continue to
participate in these programs after their retirement. The OPM has provided the FMC with certain
cost factors that estimate the true cost of providing the post-retirement benefit to current
employees. The FMC recognizes a current cost for these and Other Retirement Benefits (ORB)
at the time the employee's services are rendered. The ORB expense is financed by OPM, and
offset by the FMC through the recognition of an imputed financing source.

M.     Use of Estimates

The preparation of the accompanying financial statements in accordance with Generally
Accepted Accounting Principles requires management to make certain estimates and
assumptions that affect the reported amounts of assets, liabilities, revenues, and expenses. Actual
results could differ from those estimates.

N.     Imputed Costs/Financing Sources

Federal government entities often receive goods and services from other Federal government
entities without reimbursing the providing entity for all the related costs. In addition, Federal
government entities also incur costs that are paid in total or in part by other entities. An imputed
financing source is recognized by the receiving entity for costs that are paid by other entities.
FMC recognized imputed costs and financing sources in fiscal years 2013 and 2012 to the extent
directed by accounting standards.

                                                14
NOTE 1- SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES Cont’d

O.     Contingencies

Liabilities are deemed contingent when the existence or amount of the liability cannot be
determined with certainty, pending the outcome of future events. FMC recognizes contingent
liabilities in the accompanying balance sheet and statement of net cost, when it is both probable
and can be reasonably estimated. FMC discloses contingent liabilities in the notes to the financial
statements when the conditions for liability recognition are not met, or when a loss from the
outcome of future events is more than remote. In some cases, once losses are certain, payments
may be made from the Judgment Fund maintained by the U.S. Treasury, rather than from the
amounts appropriated to FMC for agency operations. Payments from the Judgment Fund are
recorded as an “Other Financing Source” when made.

P.     Reclassifications

Certain fiscal year 2012 balances have been reclassified, re-titled, or combined with other
financial statement line items for consistency with the current year presentation.

NOTE 2- FUND BALANCE WITH TREASURY

Fund balance with Treasury account balances as of September 30, 2013 and 2012 are as
follows:

                                                              2013                  2012
Fund Balances:
  Appropriated Funds                                     $ 2,620,747               $ 4,254,644
Total                                                    $ 2,620,747               $ 4,254,644
Status of Fund Balance with Treasury:
  Unobligated Balance
  Available                                              $    10,251               $    86,652
  Unavailable                                                575,060                 1,198,398
  Obligated Balance Not Yet Disbursed                      2,035,436                 2,969,594
Total                                                    $ 2,620,747               $ 4,254,644

No discrepancies exist between the Fund Balance reflected on the Balance Sheet and the
balances in the Treasury accounts.

The available unobligated fund balances represent the current-period amount available for
obligation or commitment. At the start of the next fiscal year, this amount will become part of
the unavailable balance as described in the following paragraph.

The unavailable unobligated fund balances represent the amount of appropriations for which the
period of availability for obligation has expired. These balances are available for upward
adjustments of obligations incurred only during the period for which the appropriation was
available for obligation or for paying claims attributable to the appropriations.


                                                15
NOTE 2- FUND BALANCE WITH TREASURY Cont’d

The obligated balance not yet disbursed includes accounts payable, accrued expenses, and
undelivered orders that have reduced unexpended appropriations, but have not yet decreased the
fund balance on hand (see also Note 12).

NOTE 3- ACCOUNTS RECEIVABLE

Accounts receivable balances as of September 30, 2013 and 2012, are as follows:
                                                          2013                  2012

With the Public Accounts Receivable                       $ 273                $ 4,031
Total Accounts Receivable                                 $ 273                $ 4,031

The accounts receivable is primarily made up of bills to public for goods and services. Historical
experience has indicated that the majority of the receivables are collectible. There are no material
uncollectible accounts as of September 30, 2013 and 2012.

NOTE 4- PROPERTY, EQUIPMENT, AND SOFTWARE

The Schedule of Property, Equipment, and Software as of September 30, 2013 is as follows:

                                                   Accumulated
                               Acquisition         Amortization/             Net Book
Major Class                          Cost           Depreciation                Value
Leasehold Improvements              $ 225,000           $ 202,500               $ 22,500
Furniture & Equipment                 315,251             202,704                 112,547
Software-in-Development               210,579                  -                  210,579
Total                               $ 750,830           $ 405,204               $ 345,626

Schedule of Property, Equipment, and Software as of September 30, 2012 is as follows:

                                                   Accumulated
                               Acquisition         Amortization/            Net Book
Major Class                          Cost          Depreciation                Value
Leasehold Improvements           $ 225,000               $ 157,500             $ 67,500
Furniture & Equipment               315,250                143,006               172,244
Software-in-Development             180,579                   -                  180,579
Total                            $ 720,829               $ 300,506             $ 420,323

NOTE 5- LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The liabilities for FMC as of September 30, 201 3 and 2012 i nclude liabilities not covered by
budgetary resources. Congressional action is needed before budgetary resources can be provided.
Although future appropriations to fund these liabilities are likely and anticipated, it is not certain
that appropriations will be enacted to fund these liabilities.

                                                 16
NOTE 5- LIABILITIES NOT COVERED BY BUDGETARY RESOURCES Cont’d

                                                               2013                    2012
Intragovernmental – FECA                                   $        200           $        324
Unfunded Leave                                                1,249,227              1,276,758
Actuarial FECA                                                    6,912                  5,910
Total Liabilities Not Covered by Budgetary Resources        $ 1,256,339            $ 1,282,992
Total Liabilities Covered by Budgetary Resources                800,780              1,495,862
Total Liabilities                                          $ 2,057,119            $ 2,778,854

FECA and the Unemployment Insurance liabilities represent the unfunded liability for actual
workers compensation claims and unemployment benefits paid on FMC’s behalf and payable to
the DOL. FMC also records an actuarial liability for future workers compensation claims based
on the liability to benefits paid (LBP) ratio provided by DOL and multiplied by the average of
benefits paid over three years.

Unfunded leave represents a liability for earned leave and is reduced when leave is taken. The
balance in the accrued annual leave account is reviewed quarterly and adjusted as needed to
accurately reflect the liability at current pay rates and leave balances. Accrued annual leave is
paid from future funding sources and, accordingly, is reflected as a liability not covered by
budgetary resources. Sick and other leave is expensed as taken.

NOTE 6- OPERATING LEASES

FMC occupies office space in seven locations, of which six of the lease agreements are required
to be accounted for as operating leases. Lease payments are increased annually based on the
adjustments for operating cost and real estate tax escalations. The total operating lease expense
for fiscal years 2013 and 2012 w ere $2,985,156 and $2,965,085, r espectively. The lease
locations and terms are listed below:

Location                                         Term                     Lease Expiration Date
Washington, DC                                  10 years                             10/31/2022
Jamaica, NY                                     5 years                             *07/01/2013
Houston, TX                                     10 years                             09/14/2018
Tacoma, WA                                      10 years                             06/30/2019
Hollywood, FL                                   10 years                             05/31/2020
San Pedro, CA                                   10 years                             09/30/2021

*Lease is currently month-to-month until new space in Iselin, NJ is completed.




                                                17
NOTE 6- OPERATING LEASES Cont’d

The operating lease amount does not include estimated payments for leases with annual renewal
options. The schedule of future minimum payments for the term of the leases is as follows:

Fiscal Year                                                                   Totals
2014                                                                      $ 3,141,257
2015                                                                         3,156,813
2016                                                                         3,187,748
2017                                                                         3,219,611
2018                                                                         3,445,105
Thereafter                                                                  10,544,535
Total Future Minimum Payments                                             $ 26,695,069

NOTE 7- CONTINGENT LIABILITIES

FMC records commitments and contingent liabilities for legal cases in which payment has been
deemed probable and for which the amount of potential liability has been estimated, including
certain judgments that have been issued against the agency. There was one legal action pending
against FMC, with an estimated possible liability of $300,000 i n FY 2012. The FMC has no
knowledge of lawsuits/investigations arising from FMC operations in FY 2013.

NOTE 8- INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intragovernmental costs and revenue represent exchange transactions between FMC and other
Federal government entities, and are in contrast to those with non-Federal entities (the public).
Such costs and revenue are summarized as follows:

                                                           2013                   2012
Operational and Administrative
Intragovernmental Costs                               $    4,592,510           $ 4,811,649
Public Costs                                              11,510,422             12,096,505
    Total Program Costs                                   16,102,932             16,908,154
  Less: Intragovernmental Earned Revenue                        -                   (41,676)
    Net Program Costs                                     16,102,932             16,866,478
Formal Proceedings
  Intragovernmental Costs                                  1,304,358              1,529,477
  Public Costs                                             6,299,288              5,844,906
    Total Program Costs                                    7,603,646              7,374,383
    Net Program Costs                                      7,603,646              7,374,383
 Office of Inspector General
  Intragovernmental Costs                                   115,130                 129,247
  Public Costs                                              519,600                 614,311
   Total Program                                            634,730                 743,558
  Less: Intragovernmental Earned Revenue                     (20,410)               (12,984)
   Net Program Costs                                         614,320                730,574


                                               18
NOTE 8- INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE Cont’d

                                                             2013                   2012
 Office of Equal Employment Opportunity
  Intragovernmental Costs                               $    19,624            $     28,548
  Public Costs                                              175,688                 165,063
   Total Program Costs                                      195,312                 193,612
   Net Program Costs                                        195,312                 193,612
   Net Cost of Operations                              $ 24,516,210            $ 25,165,046

 Total Intragovernmental costs                            6,031,622               6,498,922
 Total Public Costs                                      18,504,998              18,720,784
   Total Costs                                           24,536,620              25,219,706
 Less: Total Intragovernmental Earned Revenue               (20,410)                (54,660)
  Net Cost of Operations                               $ 24,516,210            $ 25,165,046

NOTE 9- IMPUTED FINANCING SOURCES

FMC recognizes as imputed financing, the costs of future benefits which include health benefits,
life insurance, pension, and post-retirement benefit expenses for current employees. The assets
and liabilities associated with such benefits are the responsibility of the administering agency,
OPM. For the fiscal years ended September 30, 2013 a nd 2012, i mputed financing was as
follows:

                                                               2013                    2012
Office of Personnel Management                              $ 1,418,039             $1,458,582
Total Imputed Financing Sources                             $ 1,418,039             $1,458,582

NOTE 10- BUDGETARY RESOURCE COMPARISONS TO THE BUDGET OF THE
UNITED STATES GOVERNMENT

The President’s budget that will include fiscal year 2013 actual budgetary execution information
has not yet been published. The President’s budget is scheduled for publication in February
2014, and will be found at the OMB Web site: http://www.whitehouse.gov/omb/. The 2013
Budget of the United States Government, with the "Actual" column completed for 2012, ha s
been reconciled to the Statement of Budgetary Resources and there were no material differences.

NOTE 11- APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

Obligations incurred and reported in the Statement of Budgetary Resources in 2013 and 2012
consisted of the following:
                                                            2013                       2012
Direct Obligations, Category A                          $ 22,987,460               $24,084,024
Reimbursable Obligations, Category A                          20,410                    54,660
Total Obligations Incurred                              $ 23,007,870               $24,138,684

Category A apportionments distribute budgetary resources by fiscal quarters.
                                               19
  NOTE 12- UNDELIVERED ORDERS AT THE END OF THE PERIOD

  For the fiscal years ended September 30, 2013 and 2012, budge tary resources obligated for
  undelivered orders amounted to $1,234,929 and $1,473,988, respectively.

  NOTE 13- CUSTODIAL ACTIVITY

  FMC is an administrative agency collecting funds for another entity or the General Fund. As a
  collecting entity, FMC measures and reports cash collections and refunds. These collections are
  reported as custodial activity on t he “Statement of Custodial Activity”. The type of cash
  collected is for fines, penalties and administrative fees. A small portion is for interest on the past
  due fines. Another part of the custodial activity is application for licenses issued to qualified
  Ocean Transportation Intermediaries (OTI’s) in the U.S., Commission reviews, petitions, status
  changes, and special permission fees.

  Custodial receipts are broken out in the following general receipt funds:
                                                                           2013                2012
   Fines, Penalties, and Forfeitures                                   $ 3,102,173          $ 665,000
   General Fund Proprietary Receipts (user fees)                           219,812              341,673
   Refund of User Fees                                                      (2,419)                (375)
   Total Custodial Collections                                         $ 3,319,566          $ 1,006,298

  NOTE 14- RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

  FMC has reconciled its budgetary obligations and non-budgetary resources available to its net
  cost of operations.

                                                                                 2013         2012
Resources Used to Finance Activities
Budgetary Resources Obligated
 Obligations Incurred                                                       $ 23,007,870    $ 24,138,684
 Spending Authority from Offsetting Collections and Recoveries                (3,068,725)        428,224
 Obligations Net of Offsetting Collections and Recoveries                     19,939,145     24,566,908
Other Resources
  Imputed Financing from Costs Absorbed by Others                              1,418,039      1,458,582
  Net Other Resources Used to Finance Activities                               1,418,039      1,458,582
Total Resources Used to Finance Activities                                    21,357,184     26,025,490
  Total Resources Used to Finance Items Not Part of the Net Cost of
  Operations                                                                   3,002,168      (1,009,016)
Total Resources Used to Finance the Net Cost of Operations                    24,359,352      25,016,474
 Total Components of Net Cost of Operations that will not Require or
 Generate Resources in the Current Period                                         156,858       148,572
Net Cost of Operations                                                       $ 24,516,210   $ 25,165,046




                                                          20
NOTE 15- SUBSEQUENT EVENTS

In preparing these financial statements, management has evaluated events and transactions for
potential recognition or disclosure through December 2, 2013, which is the date the financial
statements are available to be issued.




                                             21
             APPENDIX A -

FEDERAL MARITIME COMMISSION COMMENTS ON
          DRAFT AUDIT REPORT




                  22
                                  Federal Maritime
                                    Commission
                              800 North Capitol Street, N.W.
                               Washington, D.C. 20573-0001


                                                                          Phone: (202) 523-5800
     Office of the                                                         Fax: (202) 523-3646
   Managing Director                                                    E-mail: omd@fmc.gov


                                     December 12, 2013



Regis & Associates, PC
1400 Eye Street, NW, Suite 425
Washington, DC 20005


Dear Mr. Regis:

I have reviewed the financial statements audit report provided to me for the fiscal year ended
September 30, 2013. I am pleased to note that there were no weaknesses or reportable findings,
and that this audit is the tenth consecutive unqualified opinion that the Federal Maritime
Commission has received.

Sincerely,




/Vern W. Hill/
Chief Financial Officer
